No.

L9-L257

IN mrn

Snpreme @ourt of tW Wnttetr btuttE
Mam Bnxor,tcn, IN HIS oFFICIAL cApACITy
as AnrzoNa Attonxpv GpupnAl, ET AL.,

Petitioruers,

v.

Dpuocnarrc NettoNal ContvtITTEE,

ET AL.,

Respondents.

Certificate of Compliance
As required by Supreme Court Rule 33.1(h),

I certify that Brief

of the

Public Interest Legal Foundation and Former Justice Department Civil
Rights Division Officials as Amici Curiae in Support of Petition for a Writ of

Certiorari contains 3,585 words, excluding the parts of the brief that are
exempted by Supreme Court RuIe 33.1(d).

I declare under penalty

of perjury

Executed on June 1,2020.

that the foregoing is true and correct.

J. Christian Adams
Counsel for amici curiae

